DOCKET NO. 20-5492

IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,

Respondent.

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI TO THE ELEVENTH CIRCUIT COURT OF APPEALS

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on this 24th day of September, 2020,
a true and correct copy of the foregoing has been submitted to
the Clerk of the Court using the Electronic Filing System. I
further certify that a copy has been sent by U.S. mail to: David
D. Hendry, Law Office of the Capital Collateral Regional
Counsel-Middle Region, 12973 North Telecom Parkway, Temple

Terrace, Florida 33637, hendry@ccmr.state.fl.us.

39
Respectfully submitted,

ASHLEY MOODY
ATTORNEY GENERAL
STATE FLOBIDA

   

 

Gal

RKOWSKI

Associate Deputy Attorney General
Florida Bar No. 158541

*Counsel of Record

TIMOTHY A. FREELAND
Senior Assistant Attorney General
Florida Bar No. 0539181

Office of the Attorney General
Capital Litigation

PL-01, The Capitol

Tallahassee, Florida 32399

Telephone: 850-414-3300

carolyn. snurkowski@myfloridalegal.com
timothy. freeland@myfloridalegal.com
capapp@myfloridalegal.com

COUNSEL FOR RESPONDENT

40
